Correctional FacHity on
for marling

Provided

Provided to 9rae«v!)le ewiwtteiwl P@cilitv on
—-

—

/L

i

\ku

cvuyT)

tCDV- <Ae_ofnA^uiAi.

-VL\oC.i &a^J_______ _

^^.•CoAe^'. J.

oc

■t

A^*AVitk\>\>eVVAc_<LotArV_ 6v\=>v^lo<v_ _
A^CaAIX- ^93'~~~~'~?SAgr

~AAcl&cI

~n

<Xk>Vlc>A.. W LocC&cSz r\\etrfA

s

^^u/yiotrADA.CorT citVsOvT \ *,<(_Vb __torcejS? „

s

.vWe^V *S

U.V ” icfA'-vt^jd.

nnoVuw. Vo Core"O^Jv VV<t^V-^>£aV<v'4-<^ .

~_^A>V\OiO

rcV.«>-c'\.

lit__ t

,/l^^gyvAt^---^

Ao tor r<A-__a VVe^\ jfp

P^Q.V<.(-g_^_.6.f_- ..

'^X.’;,(r-'-;':V...V

;V&V_ W.u2£L_Cq<'_4^'^‘A__ _
e_ of

<£*\Ve»A^Lj.A

Al \ _V\of^Xjt>
ua!?\v

53

to/recVei. ^P(\ ^bAcjrgjsUegir

t

K

*

;

\

s'

NOT FINAL UNTIL TIME EXPIRES TO FILE REHEARING
MOTION AND, IF FILED, DETERMINED
IN THE DISTRICT COURT OF APPEAL
OF FLORIDA
SECOND DISTRICT
EL-ASAD ALSAEDI,
Appellant,
v.
STATE OF FLORIDA,
Appellee.

)
)
)
)
)
)
)
)
)

Case No. 2D20-223

Opinion filed July 1, 2020.
Appeal pursuant to Fla. R. App. P.
9.141(b)(2) from the Circuit Court
for Sarasota County; Charles E. Williams,
Judge.
El-Asad Alsaedi, pro se.

PER CURIAM.
Affirmed. See Moore v. State, 882 So. 2d 977 (Fla. 2004); Carpenter v.
State. 884 So. 2d 385 (Fla. 2d DCA 2004); Lane v. State. 981 So. 2d 596 (Fla. 1st DCA
2008); Williams v. State. 907 So. 2d 1224 (Fla. 5th DCA 2005).

NORTHCUTT, KELLY, and VILLANTI, JJ., Concur.

!!

DISTRICT COURT OF APPEAL
SECOND DISTRICT
P.O.BOX 327
LAKELAND, FL 33802

Dear Appellant:
The attached sheet is a copy of a decision on your appeal in this court.
I am not permitted to explain the reason or reasons the court came to its decision
in a case I can tell you that decisions are reached in an appeal after review by
this court of the record from the trial court, the briefs submitted, if applicable
(briefs are not required in summary rule 3.850 or 3.800 appeals), as well as oral
argument, if any.
The attached decision means that after reviewing your appeal, <th!5f court has
determined that there was not reversible error in the action taken by the I v/er
tribunal in your case, and the judgment, order, or sentence you appealed is
upheld and stands unchanged (affirmed).
Sincerely,

VA

6^
Mary Elizabeth Kuenzel
Clerk .
MEK: sg

Attachment

n J.

»

1/

4.

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
IN AND FOR SARASOTA COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
v.

CASE NO.

2012-CF-7 NC

ELASAD JAMIE ALSAEDI,
Defendant.
ORDER DENYING DEFENDANT’S MOTION TO CORRECT ILLEGAL SENTENCE
THIS MATTER is before the Court on Defendant’s pro se Motion to Correct Illegal
Sentence filed November 1, 2019, pursuant to Fla. R. Crim. P. 3.800(a), and the amended motion
filed November 12, 2019. A jury convicted Defendant of armed burglary with assault or battery,
robbery with a firearm, armed kidnapping, two counts of false imprisonment, and two counts of
aggravated assault with a deadly weapon. These crimes occurred on or about January 1, 2012.
The Court sentenced Defendant to 40 years in prison with a minimum mandatory of 10 years.
The judgment and sentence were affirmed on appeal.
Defendant now claims his sentence is illegal because it deviates from the guidelines’
recommended sentencing range by more than 25% and was not accompanied by written reasons
for departure.

Defendant’s reliance on the rules pertaining to the sentencing guidelines is

misplaced because the Criminal Punishment Code (CPC) governs all non-capital felonies
committed on or after October 1,1998. § 921.002, Fla. Stat. (2012); see also § 921.0024(2), Fla.
Stat. (“[t]he permissible range for sentencing [under the CPC] shall be the lowest permissible
sentence up to and including the statutory maximum”); Moore v. State, 882 So. 2d 977, 985 (Fla.
2004) (“a single sentencing range is not established under the CPC as occurred under the prior
guidelines”).

Defendant’s sentence is not a departure under his CPC scoresheet.

Further,

Filed 11/18/2019 11:02 AM - Karen E. Rushing, Clerk of the Circuit Court, Sarasota County, FL

Defendant’s claim that the Court erroneously imposed an upward departure sentence without
written reasons is not cognizable under rule 3.800(a). See Jackson v. State, 29 So. 3d 1152, 1154
(Fla. 2d DCA 2010).
It is, therefore, ORDERED AND ADJUDGED that Defendant’s Motion to Correct
Illegal Sentence is DENIED. Defendant has thirty (30) days from the rendition of this order to
file an appeal.
DONE AND ORDERED in Chambers in Sarasi (a, Sarasota County, Florida, this
day of November 2019.
LIAMS

CJ

ircuit Judge

Attachments:
1. Second Amended Information
2. Judgment and Sentence
3. Scoresheet

CERTIFICATE OF SERVICE
I hereby certify that on this (5^ day of November 2019, copies of the foregoing Order
were furnished by U.S. Mail/hand delivery and/or electronic mail to: Elasad J. Alsaedi, DC
#D24134, Graceville Correctional Facility, 5168 Ezell Rd., Graceville, FL 32440; and Office of
the State Attorney, saorounds@sao 12.org. 2071 Ringling Blvd., Suite 400, Sarasota, FL 34237.
By:
Judicial Assi

2

ATTACHMENT 1

IB THB CIRCUIT COURT IB ABD FOR SARASOTA COUHTY, FLORIDA
IB THB YBAR OF OUR LORD TWO THOUSAHD TWBLVB
CLERKS HO. 2012CF000007BC

STATB OF FLORIDA,

yRT THIS 10,r/:X

V8 .

!

^n^clerkof'coUrt~'

ELASAD JAMIE ALSAEDI,

m

/

CLERK

SECOHD AMBHDED IBFORMATIOH FOR:

1)

2)

ARMED BURGLARY WITH A FIREARM AND/OR ASSAULT AND/OR BATTERY

810.02(1) end (2) (a) and (2Mb^^n5i0^M^an^2) (a)
Schwartz,
3(1) and(2)(a);

ROBBERY (FIREARM OR DEADLJMjJ

775.087(1) and (2) (a)

!

3)

ARMED KIDNAPPING (COMMIT FELONY AND MINOR UNDER 13 YEARS OF
AGE) 787.0:.(1) (a)2; 775.087(1) and (2) (a) (L F)

4)

FALSE IMPRISONMENT 787.02(1) (a)

(3 F)

5)

FALSE IMPRISONMENT 787.02(1)(a)

(3 F)

6)

AGGRAVATED ASSAU
and (2) (a) (3 F)

7)

AGGRAVATED ASSAUL
and (2) (a) (3 F)

I
i
i
i
i
i
i

FIREARM 784.021 (1) (a); 775.087(1)
REARM 784.021(1)(a); 775.087(1)

In the Name and by Authority of the State of Florida:
EARL MORELAND, state Attorney of the Twelfth Judicial Circuit of
the State of Florida, by and through his undersigned Assistant
State Attorney, prosecuting for the State of Florida in the
Circuit Court in and for the County of Sarasota, Florida, under
oath information makes that

i
i
i

ELASAD JAMIE ALSAEDI, SS
ADDRESS: 8207 COLLIER PARK PLACE, Tampa, FL 33637
DOB: 10/19/1985
RACE:Vf SEX: M
HGT: 510 tfGT: 200

-1-

L

COLOR EYES/HAIR: BROVN/BLACK
COUNT 1:
on or about
or©said, did
i© County and State
January 1,
in
unlawfully enter or remain in a certain structure or dwelling,
the property of CAROL s SCHVARTZ, with the intent to commit an
offense therein and, while in the course of committing the
offense, in the aforesaid structure or dwelling, the said ELASAD
JAMIE ALSAEDI was armed or armed himself with a dangerous
weapon, to wit: HANDGUN AND/OR SHOTGUN while carrying and
actually possessing a firearm, to-wit: HANDGUN AND/OR SHOTGUN,
AND/OR while in the aforesaid structure or dwelling the sa^d
ELASAD JWJI^ALSAED^d^^nake an assault or battery upon^^^l
contrary to sections 810.02(1) and
7(1) and (2)(a), Florida statutes in
(2) (a)
such case made, and provided and against the peace and dignity
of the State of Florida.(GOC: P, STATUS: A)

i

on or about January 1, 2012, in the County and
d then and there unlawfully, by force, violence,
assault or putting in fear, take away from the person or custody
of D.P.M. certain property to-wit: TABLET AND/OR COMPUT•j^^N^OR
SAFE, with intent to permanently or temporarily deprive
said property, and in the course of said robbery, ELASAD JAMIE
ALSAEDI carried a firearm to-wit: HANGUN AND/OR SHOTGUN while
actually possessing said firearm, contrary to Section 812.13(1)
and (2)(a); and 775.087(1) and (2) (a), Florida Statutes, in such
case made, and provided and against the peace and dignity of the
state of Florida. (GOC: P, status: A)

COUNT
State

on or about January 1, 2012, in the County and
____ Lwmu did
secretly or by threat confine,
forcibl
COUNT 3
State aforesaid,

abduct or inprison __________ ■HIM a child under the age
of thirteen, against his will and without lawful authority, with
intent to commit or facilitate the commission of a felony, to-wit:
BURGLARY AND/OR ROBBERY and during the commission of said
ELASAD JAMIE ALSAEDI carried,
displayed,
used,
kidnapping,
threatened, or attempted to use a weapon, to-wit: HANDGUN AND/OR
SHOTGUN, while actually possessing a firearm, contrary to Section
787.01(l)(a)2 and (1) (to); and 775.087(1) and (2)(a), Florida
Statutes, in such case made, and provided and against the peace
and dignity of the State of Florida.(GOC: P, STATUS: A,)

i

n or about January 1, 2012, in the County and
COUNT 4
State aforesaid did unlawfully, without authority forcibly, by
threat, or secretly confine, abduct, imprison, or restrain one

l

-2-

I
I
I
I
l

against her will, contrary to Section 787.02(1) (a), Florida
Statutes, in such case made, and provided and against the peace
and dignity of the State of Florida. (GOC: P, STATUS: A)

I

COURT 5:
on or about January 1, 2012, in the County and
State
unlawfully, without authority forcibly, by
threat or secretly confine, abduct, imprison, or restrain one,
____Jjainst his will, contrary to Section 787.02 (1) (a), Florida
Statutes, in such case made, and provided and against the peace
and dignity of the State of Florida.(GOC: P, STATUS: A)

i

cou>T_6j_mm

n or about January 1, 2012, in the County and
d intentionally and unlawf
State aforesai
hreaten by word
or act to do violence to the person of
oupled with an
apparent ability to do so and did an act creating a well-founded
that such violence was imminent, and in so
fear in the said
doing did use a deadly weapon, to-wit: HANDGUN AND/OR SHOTGUN, and
during the commission of said aggravated assault, ELASAD JAMIE
ALSAEDI carried, displayed, used, threatened, or attempted to use
a FIREARM, to-wit: HANDGUN AND/OR SHOTGUN, while actually
possessing said firearm, contrary to Section 784.021(1)(a); and
775.087(1) and (2) (a), Florida Statute, in such case made, and
provided and against the peace and dignity of the State of
Florida.(GOC: P, STATUS: E)
H>r about January 1, 2012, in the County and
intentionally and unlawfully threaten by word
State a oresai
coupled with an
or act to do violence to the person of
apparent ability to do so and did an act creating a well-founded
Khat such violence was imminent, and in
fear in the sai
so doing did use a deadly weapon, to-wit: HANDGUN AND/OR SHOTGUN,
and during the commission of said aggravated assault, ELASAD JAMIE
ALSAEDI carried, displayed, used, threatened, or attempted to use
a FIREARM, to-wit: HANDGUN AND/OR SHOTGUN, while actually
possessing said firearm, contrary to Section 784.021(1)(a); and
775.087(1) and (2)(a), Florida Statute, in such case made, and
provided and against the peace and dignity of the State of
Florida.(GOC: P, STATUS: E)
COURT 7

STATE OF FLORIDA
COUNTY OF SARASOTA

Personally appeared before me, EARL MORELAND, the undersigned
State Attorney of the Twelfth Judicial Circuit of the State of
Florida, in and for Sarasota County or his duly designated
Assistant State Attorney, who being duly sworn, says the
allegations in the foregoing information are based upon fact3

-3-

I
that have been sworn to as true, and which, if true, vould
constitute the offense therein charged, and that this
information is filed in good faith in instituting this
prosecution and that testimony was received under oath from a
material witness or witnesses.
EARL MORELAND, STATE ATTORNEY
TWELFTH JUDICIAL CIRCUIT
BY:
SHANNON HANKIN
Assistant State Attorney
Twelfth Judicial Circuit
State of Florida
2071 Ringling Blvd., 4th FL
Sarasota, FL 34237
Florida Bar # 812471
The^foregoing instrument was acknowledged before me this IQ day
of
2012 by SHANNON HANKIN who is personally known to me
to be an Assistant State Attorney for the Twelfth Judicial
Circuit and who did take an oath.
\\
nature)

(printed name or stamp)
NOTARY PUBLIC, STATE OF FLORIDA

l
l

I

Division 2
SSO, 12-000034
Agency N j.:
01/01/2012
Arrested;
12CF000133AS
SAO no.:
5801173745
OBTS NO.;
Booking do.: 12-26
Arraignment Date: 01/27/2012
Summons Requested: □
Capias Requested: ^ COUNTS 6 AND 7 ONLY
Habitual:
YES □ NO □
YES □ NO □
PRR:
-4-

r

10/20/LIFE

YES Q

NO □

CC: DEP. Darby, #2119

l

:
I
i

I
I

I

-5-

ATTACHMENT 2

:

(3 IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT IN AND FOR
SARASOTA COUNTY, FLORIDA
□ IN THE COUNTY COURT IN AND FOR SARASOTA COUNTY, FLORIDA
DIVISION: CRIMINAL
~|
JUDGMENT
CASE NUMBER: 2012 CF 000007 NC
VS. DEFENDANT
PLAINTIFF
STATE OF FLORIDA

□ Probation Violator

ELASAD JAMIE ALSAEDI
STAMP FOR RECORDING

□ Community Control Violator

□ Retrial

□ Resentence

DANIEL HERNANDEZ

The Defendant, ELASAD JAMIE ALSAEDI being personally before this Court represented by
attorney of record and the State represented
(Check
Applicable
Provision)

El 1. Been tried and found GUILTY by jury/by Court of the following crime(s)
□ 2. Entered a plea of GUILTY to the following crime(s)
□ 3. Entered a plea of NOLO CONTENDRE to the following crime(s)
CRIME

COUNT
6 and 7
2

1

3
4 and 5

the

AGGRAV ASSLT-W DEADLY
WEAPON WITHOUT INTENT TO
KIU
ROBBERY WITH A FIREARM OR
DEADLY WEAPON
ARMED BURGLARY OF A
STRUCTURE, CONVEYANCE OR
DWELL Wit*
t ii.
_______
ARMED KIDNAPPING
FALSE IMPRISONMENTADULT

(Check If Applicable)

OFFENSE
STATUTE
NUMBER(S)
784.021(1 A)

DEGREE
OF
CRIMES
3rd Degree
Felony

812.13(2A)*2

1st Degree
Felony
Punishable By
Life
let Bcgreer
Feluny
PuniohaMe By
Life
_
_
Life Felony O
3rd Degree

810.02(2B)*1

787.01 (1A2)‘2
787.02(1 A)

CASE
NUMBER

OBTS
NUMBER

2012 CF 000007 NC

5801173745

2012 CF 000007 NC

5801173745

2012 CF 000007 NC

5801173745

2012 CF 000007 NC
2012 CF 000007 NC

Felony

E) and no cause being shown why the Defendant should not be adjudicated guilty, IT IS ORDERED THAT the
Defendant is hereby ADJUDICATED GUILTY pf the above crime(s).
El and having been convicted or found guitty of, or having entered a plea of NOLO CONTENDERE or GUILTY,
regardless of adjudication, to attempts or offenses relating to sexual battery (ch. 794), lewd and lascivious
conduct (ch. 800), or murder (§782.04), aggravated battery (§784.045), car jacking (§812.133), or home
invasion robbery (§812.135), or any other offense specified in section 943.325, the defendant shall be
□ em^good'cause'be^ng'showTn^IS ORDERED THAT ADJUDICATION OF GUILT at^SHH^D.

Pursuant to the provisions of §960.29-960.293, Florida Statutes, a lien is hereby imposed in favor of the State

arf^)r Sarffbta

□ Defendant wasconvicted for an offense other than a capital or life felony. This Ue3j§tor liqtjijiatetfdagpiges.
in the amount of fifty dollars ($50.00) per day of the defendant's sentence. .
□ Defendant was convicted for a capital or life felony. This lien is for liquidated dgm3ggS injjSB amoyi^ot twohundred and fifty thousand dollars ($250,000.00).
ALL LIQUIDATED DAMAGE SUMS BEAR INTEREST AT THE RATE SET FORTH IN §55.03, FLORIDA^TATy©^

DONE AND ORDERED in open court at Sarasota, Florida, this 13°’ day of September, 2012.

, ,
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing has
been furnished by U.S Mail/hand delivery to the
n State Attorney U
unty Probation .Q Defendant
H Defense Attorney
M
tness my hand and ofljcia seal this
Pt
day
of
»
£7,
2fTTT5\—
KAREN E. RUkNG, dERK OF THE. ClRCUirbOKf
By:
Deputy Clerk

CIRCUIT JUDGE CHARLES E ROBERTS

*

judgment

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT IN AND FOR
SARASOTA COUNTY, FLORIDA
□ IN THE COUNTY COURT IN AND FOR SARASOTA COUNTY, FLORIDA
DIVISION: CRIMINAL

JUDGMENT

i

CASE #: 2012 CF 000007 NC
VS. DEFENDANT

PLAINTIFF

STATE OF FLORIDA

ELASAD JAMIE ALSAEDI
STAMP FOR RECORDING

FINGERPRINTS OF DEFENDANT
1. R Thumb

2. R Index

3. R Middle

4. R Ring

5. R Little

1. L Thumb

2. L Index

3. L Middle

4. L Ring

5. L Little

Fingerprints taken by:

£>P(° o

y
Name

Title

T HEREBY.CERTIFY that the above and foregoing fingerprints are the fingerprints of the Defendant,
ELASAD jAMIE ALSAEDI and that they were placed thereon by said Defendant in my presence in open
court of this date.
/ 3 dav of Sa-PT". .2042.
DONE AND ORDERED in open court at Sarasota, Florida, this

CIRCUIT JUDGE CHARLES E. ROBERTS
Page 1

judgment

IS IN THE CIRCUIT COURT OF THE TWELVETH JUDICIAL CIRCUIT IN AND FOR
SARASOTA COUNTY, FLORIDA
DIVISION
CASE NUMBER: 2012 CF 000007 NC
OBTS NUMBER: 5801173745
CRIMINAL
PLAINTIFF
VS. DEFENDANT

STATE OF FLORIDA

ELASAD JAMIE ALSAEDI

:

i'iLEC FOR RLCCP";
2312 Sr.? 13 r.^ U-09
‘•wt: s •: s-..i • • ■

• *
SENTENCE AND SPECIAL PROVISIONS

c:r CKCLi;

w ::i .*• *

STAMP FOR RECORDING

SENTENCE
(As to Counts 1 - 3)
The Defendant, being personally before this Court, accompanied by the Defendant’s attorney of record,
DANIEL HERNANDEZ, and having been adjudicated guilty herein, and the Court having given the Defendant
opportunity to be heard and to offer matters in mitigation of sentence, and to show cause why the Defendant should
not be sentenced as provided by law, and no cause being shown,
(Check one if
applicable)

□ and the Court having on deferred imposition of sentence until this date
□ and the Court having previously entered a judgment in this case on now re-sentences the
Defendant
□ and the Court having placed the Defendant on □ probation □ community control and having
subsequently revoked the Defendant’s Q probation □ community control

IT IS THE SENTENCE OF THE COURT THAT:
□ The Defendant pay a fine of $, pursuant to § 775.083, Florida Statutes, plus $ as the 5% surcharge required by
§ 938.04, Florida Statutes.
^ The Defendant is hereby committed to the custody of the Department of Corrections.
□ The Defendant is hereby committed to the custody of the Sheriff of Sarasota County, Florida
□ The Defendant is sentenced as a youthful offender in accordance with § 958.04, Florida Statutes
FILED FOR RECORD STAMP

TO BE IMPRISONED (check one; unmarked sections are inapplicable):
□ For a term of natural life
^ For a term of 40 YEARS.
□ Said SENTENCE SUSPENDED for a period of subject to conditions set forth
in this Order

Page 1 of 3
sentprov

If “split" sentence, complete the appropriate paragraph.
□ Followed by a period of on □ probation □ community control under the supervision of the Department of
Corrections according to the terms and conditions of supervision set forth in a separate order entered herein.
□ However, after serving a period of imprisonment in , the balance of the sentence shall be suspended and the
Defendant shall be placed on □ probation □ community control for a period of under the supervision of the
Department of Corrections according to the terms and conditions of O probation CD community control set forth
in a separate order entered herein.
In the event the Defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied
before the Defendant begins service of the supervision terms.
SPECIAL PROVISIONS
(As to Counts 1 - 3)
By appropriate notation, the following provisions apply to the sentence imposed:
MANDATORY/MINIMUM PROVISIONS:
Firearm

I3 It is further ordered that the □ 3-year minimum £3 10-year minimum □ 20-year
minimum □ 25 year to Life minimum Imprisonment provisions of §775.087(2), ,
Florida Statutes, is hereby imposed for the sentence specified in this count.
Pursuant to the 25 year to Life minimum Imprisonment provision of
§775.087(2), Florida Statutes (if checked above) the court Imposes a minimum
Imprisonment sentence of 10 YEARS AS TO COUNTS 1—3.

Drug Trafficking

□ It is further ordered that the mandatory minimum imprisonment provision of §
893.135(1), Florida Statutes, is hereby imposed for the sentence specified in this
count.

Controlled Substance
Within 1,000 Feet of
School

□ It is further ordered that the 3-year minimum imprisonment provision of §
893.12(1)(e)1, Florida Statutes, is hereby imposed for the sentence specified in this
count.
□ The Defendant is adjudicated a habitual felony offender and has been sentenced to
an extended term in accordance with the provisions of § 775.084(4)(a), Florida
Statutes. The requisite findings by the Court are set forth in a separate order or
stated on the record in open court.

Habitual Felony
Offender

Habitual Violent
Felony Offender

Law Enforcement
Protection Act

□ The Defendant is adjudicated a habitual violent felony offender and has been
sentenced to an extended term in accordance with the provisions of § 775.084(4)(b),
Florida Statutes. A minimum term of year(s) must be served prior to release. The
requisite findings of the Court are set forth in a separate order or stated on the
record in open court.
□ It is further ordered that the Defendant shall serve a minimum of year(s) before
release in accordance with § 790.0823, Florida Statutes.

Capital Offense

□ It is further ordered that the Defendant shall serve no less than 25 years in
accordance with provisions of § 775.082(1), Florida Statutes.

Short-Barreled Rifle,
Shotgun, Machine
Gun
Continuing Criminal
Enterprise

□ It is further ordered that the 5-year minimum sentence provisions of § 790.221 (2),
Florida Statutes, are hereby imposed for the sentence specified in this count.

Taking a Law
Enforcement Officer’s
Firearm___________

□ It is further ordered that the 25-year minimum sentence provisions of § 893.20,
Florida Statutes, are hereby imposed for the sentence specified in this count.
□ It is further ordered that the 3-year mandatory minimum imprisonment provision of §
775.0875(1), Florida Statutes, is hereby imposed for the sentence specified in this
count.
________________________________—----------------------Page 2 of 3
sentprov

E IN THE CIRCUIT COURT OF THE TWELVETH JUDICIAL CIRCUIT IN AND FOR
SARASOTA COUNTY, FLORIDA

DIVISION
CRIMINAL
PLAINTIFF

CASE NUMBER: 2012 CF 000007 NC
OBTS NUMBER: 5801173745
VS. DEFENDANT

STATE OF FLORIDA

ELASAD JAMIE ALSAEDI

;
SENTENCE AND SPECIAL PROVISIONS

STAMP FOR RECORDING

SENTENCE
(As to Counts 4 - 7)
The Defendant, being personally before this Court, accompanied by the Defendant’s attorney of record,
DANIEL HERNANDEZ, and having been adjudicated guilty herein, and the Court having given the Defendant
opportunity to be heard and to offer matters in mitigation of sentence, and to show cause why the Defendant should
not be sentenced as provided by law, and no cause being shown,
(Check one if
applicable)

Q and the Court having on deferred imposition of sentence until this date
□ and the Court having previously entered a judgment in this case on now re-sentences the
Defendant
□ and the Court having placed the Defendant on □ probation □ community control and having
subsequently revoked the Defendant’s □ probation □ community control

IT IS THE SENTENCE OF THE COURT THAT:

!
i

□ The Defendant pay a fine of $, pursuant to § 775.083, Florida Statutes, plus $ as the 5% surcharge required by
§ 938.04, Florida Statutes.
[3 The Defendant is hereby committed to the custody of the Department of Corrections.
□ The Defendant is hereby committed to the custody of the Sheriff of Sarasota County, Florida
□ The Defendant is sentenced as a youthful offender in accordance with § 958.04, Florida Statutes
FILED FOR RECORD STAMP

TO BE IMPRISONED (check one; unmarked sections are inapplicable):
□ For a term of natural life
[3 For a term of 185.4 MONTHS.
□ Said SENTENCE SUSPENDED for a period of subject to conditions set forth
in this Order

i

Page 1 of 3
sentprov

J

•f “split” sentence, complete the appropriate paragraph.

------------------------------------ ——

D saa; s*j,£rr^

of

I^SeL^re/hS."810 'he 'ermS ^ 00ndi"0nS °'1=1 Pr0bali°n D

set forth

beforetheDef^nd^nfbeginssen^o^oflhesufwn^on terms!'* S“’ a" ™"°" POr"°"S — 68 —-

SPECIAL PROVISIONS
(As to Counts 4-7)
By appropriate notation, the following provisions apply to the sentence imposed:
MANDATORY/MINIMUM PROVISIONS:
Firearm

K It is further ordered that the £3 3-year minimum □ 10-year minimum □ 20-year
minimum LJ 25 year to Life minimum imprisonment provisions of §775.087(2),
Florida Statutes, is hereby imposed for the sentence specified in this count.
Pursuant to the 25 year to Life minimum imprisonment provision of
§775.087(2), Florida Statutes (if checked above) the court imposes a minimum
imprisonment sentence of 3 years AS TO COUNTS 6 and 7.

Drug Trafficking

□ It is further ordered that the mandatory minimum imprisonment provision of §
893.135(1), Florida Statutes, is hereby imposed for the sentence specified in this

Controlled Substance
Within 1,000 Feet of
School

O It is further ordered that the 3-year minimum imprisonment provision of §
count^1^e>1' F,0riCia Statutes'is her®by imposed for the sentence specified in this

Habitual Felony
Offender

□

Habitual Violent
Felony Offender

□ The Defendant is adjudicated a habitual violent felony offender and has been
sentenced to an extended term in accordance with the provisions of § 775.084(4)(b),
Florida Statutes. A minimum term of year(s) must be served prior to release. The
requisite findings of the Court are set forth in a separate order or stated on the
record in open court.

Law Enforcement
Protection Act

□ It is further ordered that the Defendant shall serve a minimum of year(s) before
release in accordance with § 790.0823, Florida Statutes.

Capital Offense

□ It is further ordered that the Defendant shall serve no less than 25 years in
accordance with provisions of § 775.082(1), Florida Statutes.

Short-Barreled Rifle,
Shotgun, Machine
Gun
Continuing Criminal
Enterprise

□ It is further ordered that the 5-year minimum sentence provisions of § 790.221(2),
Florida Statutes, are hereby imposed for the sentence specified in this count.

Taking a Law
Enforcement Officer’s
Firearm

Defendant is adjudicated a habitual felony offender and has been sentenced to
an extended term in accordance with the provisions of § 775.084(4)(a), Florida
Statutes. The requisite findings by the Court are set forth in a separate order or
stated on the record in open court.

O It is further ordered that the 25-year minimum sentence provisions of § 893.20,
Florida Statutes, are hereby imposed for the sentence specified in this count.
□ It is further ordered that the 3-year mandatory minimum imprisonment provision of §
775.0875(1), Florida Statutes, is hereby imposed for the sentence specified in this
count.
Pago 2 of 3
sentprov

OTHER PROVISIONS:
Retention of Jurisdiction

□ The Court retains jurisdiction over the Defendant pursuant to § 947.16(4)(a),
Florida Statutes.

Jail Credit

£3 It is further ordered that the Defendant shall be allowed a total of
as credit for time incarcerated before imposition of this sentence.

Prison Credit

O It is further ordered that the Defendant be allowed credit for all time previously
served on this count in the Department of Corrections prior to re-sentencing.

Consecutive/Concurrent
as to Other Counts

EJ It is further ordered that the sentence imposed for this county shall run □
consecutive to El concurrent with the sentence set forth in ALL COUNTS of this
case.

Consecutive/Concurrent
as to Other Convictions

□ It is further ordered that the composite term of all sentences imposed for the
counts specified in the Order shall run □ consecutive to □ concurrent with the
following: (check one)

DAYS

O any active sentence being served
□ specific sentences
In the event the above sentence is to the Department of Corrections, the Sheriff of SARASOTA County, Florida is
hereby ordered and directed to deliver the Defendant to the Department of Corrections at the facility designated
by the Department together with a copy of the Judgment and Sentence and any other documents specified by
Florida Statute.
The Defendant in open court was advised of the right to appeal from this sentence by filing notice of appeal within
thirty (30) days from this date with the Clerk of the Court and the Defendant’s right to the assistance of counsel in
taking the appeal at the expense of the State on showing of indigence.
In imposing the above sentence, the Court further recommends: COURT COSTS ORDERED BY THE COURT.
DONE AND ORDERED in open Court at Sarasota County, Florida this 13th day of SEPTEMBER, 2012.

CIRCUIT JUDGE CHARLES E ROBERTS
I HEREBY
^Defense Attorney U-//IAfLiAAfr?.
Witness my hand and ofl^al seal this ipl . ^ ~~da^Sr£^
By:
hi.

.

■»

Page 3 of 3
sentprov

1

!

ATTACHMENT 3

:

1

r
Rule 3.992(a) Criminal Punishment Code Scoresheet
The Criminal Punishment Code Scoresheet Preparation Manual is available at: http://www dc.state.fi.us/pub/sen cpcmJindej..html
2. PREPARER’S NAME

I. DATE OF SENTENCE

3. COUNTY

4. SENTENCING JUDGE

8. RACE

10. PRIMARY OFF. DATE

\~kn lA'i

rt

6. DOB

5. NAME (LAST, FIRST, Mi l.)

to/iq/gg
7. DC#

12.
PLI

□b Btw Gother
II. PRIMARY DOCKET#

9. GENDER

1

TRIAL

/•2.rr~7
/? PRIMARY
I^e^t.
£\(x€><xJ______________
I
nrFFNSE if Quaimer please cheek
A
S
C
R (A=Attempt. S=Solicitation, C=Conspiracy. R=Redasslfication)

i
i

Bm Df

FELONY
DEGREE

Lf'

POINTS

OFFENSE
LEVEL

-7-7*37
1516,MbVfe-)*J/izl/y

Id

RutVa'DuupU lo/ FA 4- /feaiil/feW-

i

(Level - Points: 1=4, 2=10, 3=16, 4=22, 5=28, 6=36, 7=5fe, 8=74, 9=9^, 10=116)

II.

ADDITIONAL OFFENSE(S): Supplemental page attached □
OFFENSE
FEL/MM
F.S.#
DOCKET#
LEVEL
degree no.nh) 4(x)(y

Same-

/ L/^

tl(r

i.

Prior capital felony triples Primary Offense points O

/ ~nx.c&l

/

_2

TOTAL

POINTS

QUALIFY
COUNTS
A S C R

□ □ □ □__l_

x 5~7

= 3J2_

X

=

gringo/ KidnAtj>pin

DESCRIPTION

S6r»4^fnVilnPrtj

DESCRIPTION

gP /

^93

DESCRIPTION

SP

Lo /

k

□□□□_L

x

/p

□ □ □□ 2L

X

. /I<,SauJ+ to ) FA

1 lyy.cnl iVa.^/
ti

3 do

IS,

= 3Jip.

Kr-\c.."y-U

DESCRIPTION
(Level - Points: M=0.2,’l=0.7, 2=1.2, 3=2.H, 4=3.6, 5=5.4, 6=18, 7=28, 8=37, 9=46, 10=58)
Supplemental page points
11.

Prior capital felony triples Additional Offense points O
III.

VICTIM INJURY:
Number
240 X
120 x
40 x
18 x

2nd Degree Murder
Death
Severe
Moderate
IV.
I

=
—

!-J±

M

J-tL

/
/

/

____

/

Slight
Sex Penetration
Sex Contact

S

4x
80 x
40 x

Total

=

5

III.

PRIOR RECORD: Supplemental page attached □
OFFENSE QUALIFY:
FEL/MM
F.S.#
LEVEL
A S C R
DEGREE
,.

M

Number

Total

.

□□□□ ^rj#!
□□□□ TV-).
□□□□ /SAg-

□□□□
□□□□
□□□□
□□□□
□□□□

NUMBER

DESCRIPTION

KZtZ'n prop /aI‘'/ttiWs)
(Xl<id?Qb 7/1
-An LfEfr

/

TOTAL

x 3(fi = 36

Z___ X . Z

X ,L

___________________
___________________
__________________ _
___________________
___________________

- ‘2-

= cZLs

____ /_____ OOCJC3 ___ •' 1 * * ^n3 vinc-i-v_
(Level = Points:

POINTS

X

s

X

s

M=0.2, 1=0.5, 2=0.8, 3=1.6, 4=2.4, 5=3.6. 6=9. 7^,;

Supplemental page points

Lrll'HGfUi 3 N3i!Y>.

IV.

i | :S Wd CI<£SZIQZ

Page 1 Subtotal:5_25^ 2.

Effective Date: For offenses committed under the Criminal Punishment Code-^egivj^>y)f^»pa«|irj iglttgsLfin or_aftgr October 1.^998 and subsequentrevisions.
”
Distribution:
Whlte/Original/Clerk
Green/ DC Data
Caoary/ State Attorney

Pink/Defense Attorney
Goldenrod/ DC Offender File

Case: 7017 tf 0M0D7 NC

I

: It!
T
■

•

i

I

DOCKET#

NAME (LAST, FIRST, Ml)

A /^? ejj} fiaSa. a

/ZC£-1

,

Page 1 Subtotal:

^

y A tfp

V. Legal Status violation = 4 Points
□ Escape □ Fleeing P Failure to appear O Supersedeas bond □ Incarceration □ Pretrial Intervention or diversion program
V.
□ Court imposed or post prison release community supervision resulting in a conviction
VI. Community Sanction violation before the court for sentencing
□ Probation □ Community Control □ Pretrial Intervention or diversion
each successive violation OR
6 points for any violation other than new felony conviction x
each successive violation if new offense results in conviction
New felony conviction = 12 points x
before or at same time as sentence for violation of probation OR
12 points x______ each successive violation for a violent felony offender
of special concern when the violation Is not based solely on failure to pay costs, fines, or restitution OR
each successive violation for a violent felony offender of
New felony conviction = 24 points x
special concern if new offense results in a conviction before or at the same time for violation of probation

VI.

□
□
□
□

VII.

VII. Flrearm/Semi-Automatic or Machine Gun = 18 or 25 Points

VIII.

VIII. Prior Serious Felony - 30 Points
Subtotal Sentence Points
IX.

Enhancements (only if the primary offense qualifies for enhancement)

(often*** commMod on or after 3/12/07)

x 1.5

x 1.5

x 1.5__ x2.0___x2.5

OomMtic Vlotence *> 9w Prtscnc* of
Rotated ChQd

Criminal Gang Off*rt»e

Motor VaWcte Theft

Drug Trafficker

Lew Enf. Protect.

x 1.5

x 1.5
IX.

Enhanced Subtotal Sentence Points
TOTAL SENTENCE POINTS

SENTENCE COMPUTATION
If total sentence points are less than or equal to 44, the lowest permissible sentence is any non-state prison sanction. If the total sentence points are 22
points or less, see Section 775.082(10), Florida Statutes, to determine if the court must sentence the offender to a non-state prison sanction.

If total sentenc^pjrjts are greater than 44:

rxs.^mpi

x .75 =
minus 28 =
lowest permissible prison sentence in months
total sentence points
If total sentence points are 60 points or less and court makes findings pursuant to both Florida Statute 948.20 and 397.334(3), the court may place the
defendant into a treatment-based drug court program.

The maximum sentence is up to the statutory maximum for the primary and any additional offenses as provided in s. 775.082, F.S., unless the lowest
permissible sentence under the Code exceeds the statutory maximum. Such sentences may be imposed concurrently or consecutively. If total sentence
points are greater than or equal to 363, a life sentence may be Imposed.
. . f'

/

maximum sentence In years

TOTAL SENTENCE IMPOSED
^ State Prison

□

Life

□ County Jail

□

Time Served

□
□

Months

Days

____________

___________

Community Control
Probation

□

Modified

____________

Please check if sentenced as □ habitual offender, Dhabitual violent offender, □ violent career criminal, □ prison releasee reoffender,
or a^mandatory minimum applies.
□ Mitigated Departure
□ PleaBargain
Other Reason_____________ /0

^
□ Prison Diversion Program
'h'
? ^

<p~
^

?°
GO

7 J________

JUDGE’S SIGNATURE
Effective Date: For offenses committed under the Criminal

rent C53e effective for offenses comri

*2
lr after October 1.1998, and subsequent revisions.

V

.C<UC

l

\

AVtoVvOA-.C-DC.
‘

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
IN AND FOR SARASOTA COUNTY, FLORIDA
STATE OF FLORIDA,
Plaintiff,
CASE NO.

v.

2012-CF-7 NC

ELASAD JAMIE ALSAEDI,
Defendant.

ORDER DENYING DEFENDANT’S MOTION FOR REHEARING
THIS MATTER is before the Court on Defendant’s pro se Motion for Rehearing, filed
December 9, 2019, pursuant to Fla. R. Crim. P. 3.800(b)(1)(B), seeking rehearing of the Court’s
November 15, 2019, order denying his motion to correct illegal sentence. Upon review of the
motion, the court file, and applicable law, the Court finds no overlooked issue of fact or law that
would materially change its ruling. It is, therefore,
ORDERED AND ADJUDGED that Defendant’s Motion for Rehearing is DENIED.
DONE AND ORDERED in Chambers in Sapdspaa, Sarasota County, Florida, this 1 V?
day of December 2019.
CHARLES E. WILLIAM
Circuit Judge

CERTIFICATE OF SERVICE
I hereby certify that on this t
day of December 2019, copies of the foregoing Order
were furnished by U.S. Mail/hand delivery and/or electronic mail to: Elasad J. Alsaedi, DC
#D24134, Graceville Correctional Facility, 5168 Ezell Rd., Graceville, FL 32440; and Office of
the State Attorney, saorounds@saol2.org. 2071 Ringling Blvd., Suite 400, Sarasota, FL 34237.

BVr
Judicial Assis

Filed 12/17/2019 10:57 AM - Karen E. Rushing, Clerk of the Circuit Court, Sarasota County, FL

L

on

lie Correctional Facility
for mailing

by _

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
IN AND FOR SARASOTA COUNTY, FLORIDA

STATE OF FLORIDA,
Plaintiff,
Case No.: 2012-CF-000007

v.

EL-ASAD J. ALSAEDI,
Defendant.

AMENDED MOTION TO CORRECT ILLEGAL SENTENCE
THE DEFENDANT, El-Asad J. Alsaedi, moves this Honorable Court,
pursuant to Rule 3.800(a), Fla. R. Crim. P., to correct an illegal sentence. The trial
Court imposed a sentence upon the Defendant that exceeds the prescribed statutory
maximum, resulting in an Apprendi/Blakely violation. In support of this motion, the
Defendant states the following:
JURISDICTION
Although the term “illegal sentence” is undefined in rule 3.800(a), to be
entitled to relief pursuant to this rule a sentence must be one that no judge may
impose. See Martinez v. State, 211 So. 3d 989 (Fla. 2017) (“Noting that the term
‘illegal sentence’ is not defined in the rule, we have held that to be subject to

Page 1 of 13

Filed 11/12/2019 03:30 PM - Karen E. Rushing, Clerk of the Circuit Court, Sarasota County, FL

correction under rule 3.800(a) a sentence must be ‘one that no judge under the entire
body of sentencing laws could possibly impose.’”) (citing Wright v. State, 911 So.
81, at 83 (Fla. 2005)). In other words, “a sentence that patently fails to comport with
statutory or constitutional limitations is by definition 'illegal." Id. (citing and quoting
Plottv. State, 184 So. 3d 90, at 94 (Fla. 2014)). Accordingly, “claim[s] of error under
Apprendi and Blakely [are] cognizable in a rule 3.800(a) motion.” Id., at 91 (Fla.
2014).
i

PROCEDURAL HISTORY
On the 1st of January, 2012, the Defendant was arrested for: Armed Home
Invasion Robbery; 2 counts of Aggravated Assault; and Larceny-Grand Theft. By
September 10th, 2012, the State had filed a second amended information, charging
the Defendant with: Count 1 - Armed Burglary with a Firearm and/or Assault and/or
Battery; Count 2 - Robbery with a Firearm or Deadly Weapon; Count 3 - Armed
Kidnapping (commit felony and minor under 13); Count 4 — False Imprisonment;
Count 5 - False Imprisonment; Count 6 - Aggravated Assault with a Firearm; and
Count 7 - Aggravated Assault with a Firearm. The Defendant proceeded to a trial
by jury and was found guilty as charged on all counts. As to counts 1-3, the
Defendant was sentenced to 40 years with a 10 year minimum mandatory. In regards
to counts 4-7, he was sentenced to 185.4 months. All sentences were imposed
concurrently.
Page 2 of 13

GOVERNING PRINCIPLES
In October of 1998, the Legislature enacted §921.002 and §921.0025, Fla.
Stat. Section 921.002 is the Criminal Punishment Code (hereinafter CPC). The CPC
is the current sentencing scheme used to calculate a convicted felon’s sentence. It
expresses that the sentencing judge may impose a sentence anywhere between the
lowest permissible sentence and up to and including the statutory maximum. See
§921.002(1)(f) and (l)(g), Fla. Stat.
Section 921.0025 adopts and implements Rules 3.701,3.702,3.703, and 3.988
in accordance with chapter 921 for application to the CPC. Rules 3.701, 3.702, and
3.703 are the rules governing the sentencing guidelines. Specifically, rule 3.701 are
the rules regarding the 1983 Sentencing guidelines, rule 3.702 are the rules
governing the 1994 sentencing guidelines, and rule 3.703 are the rules pertaining to
amended 1994 sentencing guidelines. Rule 3.988 prescribes the recommended and
permitted sentencing ranges that corresponds to rule 3.701 (the 1983 sentencing
guidelines).
Moving on, in Apprendi v. New Jersey, 147 L Ed 2d 435, the United States
Supreme Court expressed that any fact, other than a prior conviction, which
increases the penalty for a crime beyond the prescribed statutory maximum must be
submitted to the jury and proved beyond a reasonable doubt. Id. at 455. Shortly after,
the Court decided Blakely v. Washington, 159 L Ed 2d 403. This decision expressed
Page 3 of 13

that the definition of a prescribed statutory maximum, is the maximum sentence a
trial court may impose based on the facts reflected by the jury’s verdict or admitted
by the defendant. Id. at 413-14 (“Our precedents make clear, however, that the
“statutory maximum” for Apprendi purposes is the maximum sentence a judge may
impose solely on the basis of the facts reflected in the jury verdict or admitted by the
defendant... In other words, the relevant “statutory maximum” is not the maximum
sentence a judge may impose after finding additional facts, but the maximum he may
impose without any additional findings. When a judge inflicts punishment that the
jury’s verdict alone does not allow, the jury has not found all the facts ‘which the
law makes essential to the punishment,’ and the judge exceeds his proper
authority.”).
LEGAL ARGUMENT
The Sixth Amendment right to a trial by jury was implemented to ensure the
people’s control over the judicial branch of Government. See Blakely v. Washington,
159 L Ed 2d 403, 412 (“Just as suffrage ensures the people’s ultimate control in the
legislative and-executive branches, jury trial is meant to ensure their control in the
judiciary”). It is also meant to guard against oppression that may be inflicted by our
judicial branch of Government. See Apprendi v. New Jersey, 147 L Ed 2d 435, 447
(“‘[T]o guard against a spirit of oppression and tyranny on the part of rulers’ and ‘as
the great bulwark of [our] civil and political liberties,’ ... trial by jury has been
Page 4 of 13

understood to require that ‘the truth of every accusation, whether preferred in the
shape of indictment, information, or appeal should afterwards be confirmed by the
unanimous suffrage of twelve of [the defendant’s] equals and neighbors’”). This
right is embedded in the Constitution because of the lack of trust that the Framer’s
had for the Government. Blakely, Supra, at 416 (“... [T]he very reason the Framers
put a jury-trial guarantee in the Constitution is that they were unwilling to trust
government to mark out the role of the jury”).
This right plays an intricate role in our judicial system. Its “reasonable doubt”
standard applies to the jury verdict and the length of the Defendant’s sentence.
Apprendi, Supra, at 447-48 (“Equally well-founded is the companion right to have
the jury verdict based on proof beyond a reasonable doubt. [...] We went on to
explain that the reliance on the ‘reasonable doubt’ standard among common-law
jurisdictions ‘reflects] a profound judgment about the way in which law should be
enforced and justice administered); and Apprendi, at 451 (“Since Winship, we have
made clear beyond peradventure that Winship’s due process and associated jury
protections extend, to some degree, ‘to determinations that [go] not to a defendant s
guilt or innocence, but simply to the length of his sentence) (citations omitted). It is
because of this right, coupled with the Fifth Amendment right to Due Process, that
criminal proceedings are initiated by an information or indictment, with specific
allegations. The allegations must be clearly expressed to the point that the Defendant
Page 5 of 13

may be able to determine the type of offense and the judgment he faces. Id., at 448
(“As a general rule, criminal proceedings were submitted to a jury after being
initiated by an indictment containing ‘all the facts and circumstances which
constitute the offence,... stated with such certainty and precision, that the defendant
... may be enabled to determine the species of offence they may constitute, in order
that he may prepare his defence [sic] accordingly ... and that there may be no doubt
as to the judgment which should be given, if the defendant be convicted. ... The
defendant’s ability to predict with certainty the judgment from the face of the felony
indictment flowed from the invariable linkage of punishment with crime.” (citing
and quoting 4 Blackstone 369-370) (“[Ajfter verdict, and barring a defect in the
indictment, pardon of benefit of clergy, ‘the court must pronounce that judgment,
which the law hath annexed to the crime (emphasis added)’”).
The above mentioned linkage of punishment with crime necessitates the
allegations within the information or indictment to be precise in order to impose, or
seek, a specific punishment. Id., at 449 (“Just as the circumstances of the crime and
the intent of the defendant at the time of commission were often essential to be
alleged in the indictment, so too were the circumstances mandating a particular
punishment. ‘Where a statute annexes a higher degree of punishment to a commonlaw felony, if committed under particular circumstances, an indictment for the
offence, in order to bring the defendant within that higher degree of punishment,
Page 6 of 13

must expressly charge it to have been committed under those circumstances, and
must state the circumstances with certainty and precision”’) (citations omitted).
These allegations must be charged against the Defendant and proven beyond a
reasonable doubt, unless the allegation pertains to prior a conviction. Id., at 446
(“‘[U]der the Due Process Clause of the Fifth Amendment and the notice and jury
trial guarantees of the Sixth Amendment, any fact (other than prior conviction) that
increases the maximum penalty for a crime must be charged in an indictment,
submitted to a jury, and proven beyond a reasonable doubt’).
It is, therefore, clearly evident that the sentences permitted to be imposed upon
the Defendant is a determination made by the Legislature. See Apprendi, Supra, at
448-49 (“As Blackstone, among many others, has made clear, ‘[t]he judgment,
though pronounced or awarded by the judges, is not their determination or sentence,
but the determination and sentence of the law.’ (citation omitted)); and §921.002(1),
Fla. Stat. (The provision of criminal penalties and of limitations upon the application
of such penalties is a matter of predominantly substantive law and, as such, is a
matter properly addressed by the Legislature). And being that sentences imposed is
a legislative matter, the Defendant has the right to have the prosecutor prove every
fact in regard to the punishment. See Blakely, Supra, at 420 (“As Apprendi held,
eve ry defendant has the right to insist that the prosecutor prove to a jury all facts
legally essential to the punishment”).
Page 7 of 13

Moreover, the CPC establishes a general range for sentencing the Defendant.
On the lower end of the scale, the Defendant may not be sentenced below the lowest
permissible sentence unless reasons for departure are provided. See §921.002(l)(f),
Fla. Stat. On the high end, the Defendant may be sentenced up to and including the
statutory maximum. See §921.002(1)(g), Fla. Stat.
While the CPC establishes a general range, the adoption and implementation
of the sentencing guidelines, as provided in §921.0025, inserts a recommended and
permitted sentencing range within the CPC’s general range. The Legislature finds
the recommended range to be appropriate for the Defendant’s score. See
§3.701 (d)(8), Fla. R. Crim. P. (The recommended sentences provided in the
guideline grids are assumed to be appropriate for the composite score of the
offender). The permitted range allows a sentencing judge to apply discretion in
sentencing the Defendant slightly beyond or below the recommended range without
the need for justification. Id.
A sentence outside of the recommended range by more than 25% is considered
to be a departure sentence. Departure sentences require the company of oral
articulation and written reasons. See Rule 3.702(d)(18) and 3.703(d)(30), Fla. R.
Crim. P. (Departure from the recommended guidelines sentence provided by the
total sentence points should be avoided unless there are circumstances or factors that
reasonably justify aggravating or mitigating the sentence. A state prison sentence
Page 8 of 13

that deviates from the recommended prison sentence by more than 25 percent ...
must be accompanied by a written statement delineating the reasons for departure.)-,
and Rules 3.702(d)(18)(A) and 3.703(d)(30)(A), Fla. R. Crim. P. (If a sentencing
judge imposes a sentence that departs from the recommended guidelines sentence,
the reasons for departure shall be orally articulated at the time sentence is imposed.
Any departure sentence must be accompanied by a written statement, signed by the
sentencing judge, delineating the reasons for departure.).
Furthermore, the United State Supreme Court’s decisions in Apprendi and
Blakely have had a significant impact on sentencing proceedings everywhere. See
State v. Johnson, 122 So. 3d 856, at 858 (Fla. 2013) (“The Supreme Court’s decisions
in Apprendi and Blakely have caused considerable confusion in criminal sentencing
at both the federal and state levels.”). After Apprendi, but prior to Blakely, courts in
the State of Florida were under the impression that a sentencing judge may make
factual findings to the extent that the sentence did not go beyond the statutory
maximum provided in §775.082, Fla. Stat. Later on, the ruling in Blakely placed a
greater limitation upon sentencing judges regarding sentences that may be imposed.
(“We understood that Apprendi permitted judges to make factual findings ‘as long
as the resulting sentence [did] not exceed the statutory maximum,’ prescribed by the
applicable statute. [] By limiting the ‘statutory maximum’ to the sentence congruent
with the facts ‘reflected in the jury verdict or admitted by the defendant,’ Blakely,
Page 9 of 13

542 U.S. at 303 (original emphasis omitted), however, the Supreme Court altered
the effect of Apprendi. As we stated above, courts interpreting Apprendi reasoned
that judges still had the power to make findings of facts affecting the sentence as
long as the statutory maximum contained in the Florida Statutes was not exceeded.
Under Blakely, courts no longer have that power under determinate sentencing
schemes.”) Id. at 865.
Although a scoresheet under rule 3.988 was not generated, this Honorable
Court and the State has constructive knowledge that the Defendant scores out to 344
points1 for the offenses he was charged with, and convicted of. This score places the
Defendant within a recommended range of 12-17 years with 15 years being the
median, and a permitted range of 9-22 years. See Rule 3.988(i), Fla. R. Crim. P.\ and
Hall v. State, 823 So. 2d 757, at 764 (“By virtue of the Florida Statutes and the laws
of Florida, a defendant has constructive notice of the penalty for statutory crimes.”)
(citing and quoting State v. Beasley, 580 So. 2d 139, 142 (Fla. 1991) ("As to notice,
publication in the Laws of Florida or the Florida Statutes gives all citizens
constructive notice of the consequences of their actions.")).

1 The scoresheet that provides the most severe sanction is 3.988(i), and the point assessment is as follows:
Armed kidnapping is a life felony and provides 241 points as the primary offense; Armed Burglary with an
Assault and Armed Robbery are two counts of first degree felonies, punishable by life, providing 45 points
as additional offenses; two counts of False Imprisonment and two counts of Aggravated Assault are four
counts of third degree felonies, also providing 22 points as additional offenses; 18 points for the Defendant s
prior record consisting of one third degree felony and three misdemeanors; and finally, an 18 points for the
use of a firearm (Rules 3.702(d)(12) and 3.703(d)(19)).
Page 10 of 13

CONCLUSION
The Defendant’s current sentence for counts 1-3, concurrent terms of 40 years
with a 10 year minimum mandatory, greatly exceeds his applicable recommended
range by nearly 138%. He was not charged with any sentence enhancement that
would permit such a sentence. And based on the laws of Florida and Constitutional
provisions of the United States, the Defendant’s sentence is illegal. The restraints of
the charging information and the jury’s verdict, as well as the holdings in Apprendi
and Blakely, do not authorize a sentence beyond 25% of the Defendant’s applicable
recommended range under Rule 3.988(i).
WHEREFORE, the Defendant prays for, and respectfully requests, a new
sentencing proceeding with the imposition of a sentence within the Defendant’s
applicable range of the sentencing guidelines.
/s/
El-Asad J. Alsaeai DCfit D24134
Graceville Correctional Facility
5168 Ezell Rd.
Graceville, Florida 32440

Page li of 13

i

UNDER PENALTIES OF PERJURY AND ADMINISTRATIVE
SANCTIONS FROM THE DEPARTMENT OF CORRECTIONS, including
forfeiture of gain time if this motion is found to be frivolous or made in bad faith, I
certify that I understand the contents of the foregoing motion, that the facts contained
in the motion are true and correct, and that I have a reasonable belief that the motion
is timely filed. I certify that this motion does not duplicate previous motions
that have been disposed of by the court. I further certify that I understand
English and have read the foregoing motion or had the motion read to me.

/s/

/yzyj Jl.j-

El-Asad J. AlsaefcfDC # D24134

Page 12 of 13

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing Motion to Correct an
Illegal Sentence has been placed in the hands of classification personnel, at
Graceville Correctional Facility, for the purpose of mailing to The State Attorney’s
Office at 2071 Ringling Blvd, Suite 400, Sarasota, Florida 34237-7000 on this
day of

£

, 2019.
Is/

^r-

El-Asad J. Alsaedi D£ # D24134

Page 13 of 13

L

*

I

ht

)/

SZaClSleXA^rL^ Jt-b_.dcLCCg^A- iWeyA ~^>

3

f

>
*

v.

\

'\
i
i

*
/ f' + V

+‘V

Jf!

>

m
IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
IN AND FOR SARASOTA COUNTY, FLORIDA

STATE OF FLORIDA,
Plaintiff,

yy GjiP*i>le c°rrect'°tno'
by^I^----

Case No.: 2012-CF-000007

v.

EL-ASAD J. ALSAEDI,
Defendant.

MOTION FOR REHEARING TO CORRECT ILLEGAL SENTENCE
THE DEFENDANT, El-Asad J. Alsaedi, pro se1, moves this Honorable
Court for a Rehearing on his Motion to Correct Illegal Sentence, pursuant to Rule
f

3.800(b)(1)(B) of the Fla. R. Crim. P. Exhibits relevant to the Defendant’s claim will
be attached to this motion, curing the deficiency in his original motion2. In support
thereof, the Defendant states the following:
ORDER DENYING MOTION TO CORRECT ILLEGAL SENTENCE
The denial of the motion to correct illegal sentence is based on: 1) The
Defendant claiming that his sentence is illegal because it deviates from the

i « Pro se litigants are given leniency on certain procedural technicalities in how they draft motions or request relief.
See Kidwell v. Kidwell, 181 So. 3d 1190 (Fla. 3rd DCA 2015) (citing Haines v. Kerner, 404 US 519, 92 S. Ct. 594,
30 L. Ed. 2d 652(1972)).

2 See Washington v. State, 70 So. 3d 634 (Fla. 1st DCA 2011), reversing an order on a Rule 3.800(a) motion and
remanding for further proceedings because the defendant’s motion for rehearing cured the deficiencies within his
motion.

Filed 12/09/2019 02:35 PM - Karen E. Rushing, Clerk of the Circuit Court, Sarasota County, FL

•v

guidelines recommended range by more than 25% and was not accompanied by a
written reason for departure; 2) His reliance on the rules pertaining to the sentencing
guidelines is misplaced because the CPC governs all non-capital felonies committed
on or after October 1st, 1998, and a single sentencing range not being established
under the CPC; 3)The Defendant’s sentence not being a departure sentence under
his CPC scoresheet; and 4) His claim that the court erroneously imposed an upward
departure without written reasons is not cognizable under rule 3.800(a).
MISAPPREHENSION OF FACTS AND LAW
First, this Honorable Court has misconstrued the Defendant’s claim. He does
not claim that his sentence is illegal because it was not accompanied by written
reasons for departure. He claims that his sentence is illegal because he was not
charged with any statutory enhancement that would permit this Honorable Court to
deviate from the recommended range of the sentencing guidelines, resulting in an
Apprendi/Blakely violation.
Secondly, this Honorable Court avers that the Defendant’s reliance on the
rules pertaining to the sentencing guidelines is misplaced because the CPC governs
all non-capital felonies committed on or after October 1st, 1998. The Defendant
res pectfully avows that this Honorable Court has overlooked the construction of the
CPC. The Criminal Punishment Code is composed of subsections 921.002 to

T'

921.00273, Florida Statutes. In the midst of the aforementioned subsections is
subsection 921.0025. Subsection 921.00254 adopts and implements rules 3.701,
3.702, 3.703, and 3.988, Fla. R. Crim. P., in accordance with chapter 921 of the
Florida Statutes for application to the CPC.
The rules adopted within §921.0025, with the exception of rule 3.988, are the
sentencing guidelines. Rule 3.988 contains the recommended and permitted ranges
that correspond to the sentencing guidelines under rule 3.701. The adoption and
implementation of these rules by the legislature was a deliberate intention that
provided sentencing ranges, limiting a judge on the sentence that may be imposed.
Therefore, contrary to Moore5, the CPC does establish a single sentencing range.
Moreover, even though the CPC does establish a single sentencing range,
there are circumstances that do not restrict a sentencing judge from imposing a
statutory maximum as expressed in §921.0024(2). The sentencing guidelines
provide rules for deviation from the recommended and permitted ranges, which
would then allow the sentencing judge to apply a sentence that is up to and including

3 See In re Adoption of Fla. Rules of Crim. Proc. 3.704 and 3.992 to Implement the Fla. Crim. Punishment
Code, 721 So. 2d 265 (Fla. 1998) (The Florida Criminal Punishment Code governs sentencing for all felonies,
except capital felonies, committed on or after October 1,1998. See ch. 98-204, Laws of Fla.; §§ 921.002-.0027, Fla.
Stat. (1997)).
4 § 921.0025. Adoption and implementation of revised sentencing scoresheets.
Rules 3.701, 3.702, 3.703, and 3.988, Florida Rules of Criminal Procedure, as revised by the Supreme Court, and any
other rule pertaining to the preparation and submission of felony sentencing scoresheets, are adopted and implemented
in accordance with this chapter for application to the Criminal Punishment Code.
5 Moore v. State, 882 So. 2d 977, 985 (Fla. 2004) (“[A] single sentencing range is not established under the CPC as
occurred under the prior guidelines.”)

•i

the statutory maximum. To provide a departure sentence, the sentencing judge must
orally articulate his reason for departure and provide a written statement. See Rule(s)
3.701(d)(ll), 3.702(d)(18) and (d)(18)(A), and 3.703(d)(30) and (d)(30)(A), Fla. R.
Crim. P6. And in order to deviate from the guidelines, the written reasons provided,
as expressed in the previously mentioned rules, are supposed be established by a
preponderance of evidence. See Rule 3.701(d)(6)1.
Acknowledgment of the ability to depart from the guidelines should not stop
there. Further scrutiny is required to fully understand the rules regarding departures.
The rules provide that the level of proof necessary to substantiate a reason for
departure is a preponderance of evidence. This is no longer the standard since the
United States Supreme Court’s rulings in Apprendi v. New Jersey, 147 L Ed 2d 435
(2000) and Blakely v. Washington, 159 L Ed 2d 403 (2004). In Apprendi, “the United
States Supreme Court held that, other than a prior conviction, any fact that increases

6 Rule 3.701(d)(ll), Fla. R. Crim. P., states, in relevant part: “Departures from the recommended or permitted
guideline sentence should be avoided unless there are circumstances or factors that reasonably justify aggravating or
mitigating the sentence. Any sentence outside the permitted guideline range must be accompanied by a written
statement delineating the reasons for departure.”
Rules 3.702(d)(18) and 3.703(d)(30), Fla. R. Crim. P., states, in relevant part: “Departure from the recommended
guidelines sentence provided by the total sentence points should be avoided unless there are circumstances or factors
that reasonably justify aggravating or mitigating the sentence. A state prison sentence that deviates from the
recommended prison sentence by more than 25%, a state prison sentence where the total sentence points are equal to
or less than 40, or a sentence other than state prison where the total sentence points are greater than 52 must be
accompanied by a written statement delineating the reasons for departure.”
Rules 3.702(d)(18)(A) and 3.703(d)(30)(A), Fla. R. Crim. P„ states, in relevant part: “If a sentencing judge imposes
a sentence that departs from the recommended guidelines sentence, the reasons for departure shall be orally articulated
at the time sentence is imposed. Any departure sentence must be accompanied by a written statement, signed by the
sentencing judge, delineating the reasons for departure.”
7 Rule 3.701(d)(6), Fla. R. Crim. P., states, in relevant part: “...The level of proof necessary to establish facts
supporting a departure from a sentence under the guidelines is a preponderance of evidence.

■■1

the punishment for a crime beyond the prescribed statutory maximum must be
submitted to a jury and proved beyond a reasonable doubt.” See Kormondy v. State,
845 So. 2d 41, 54 (Fla. 2003). In Blakely, “the Supreme Court explained that the
‘statutory maximum’ for Apprendi purposes is the maximum sentence a judge may
impose solely on the basis of the facts reflected in the jury verdict or admitted by the
defendant. In other words, the relevant ‘statutory maximum’ is not the maximum
sentence a judge may impose after finding additional facts, but the maximum he may
impose without any additional findings. When a judge inflicts punishment that the
jury's verdict alone does not allow, the jury has not found all the facts ‘which the
law makes essential to the punishment,’ and the judge exceeds his proper authority.”
See Williams v. State, 242 So. 3d 280, 290 (Fla. 2018).
Apprendi and Blakely have become two landmark cases that have had a
significant impact on sentencing within the State of Florida. While applying Appreni
and Blakely to the correct application of the CPC, it changes the way a sentence may
be imposed. The term “prescribed statutory maximum,” as provided in Apprendi,
plays an intricate role. This term received greater emphasis and clarification in the
Court’s ruling in Blakely. It was explained to be the maximum sentence a judge may
impose without any additional findings.
Now we must keep in mind the legislature’s adoption of the sentencing
guidelines. And in applying Apprendi and Blakely to sentencing in Florida Courts,

the “prescribed statutory maximum,” or the “statutory maximum for Apprendi
purposes,” would be a defendant’s sentencing guideline ranges under 3.988. So,
based on the holding of Apprendi and Blakely, to depart from the sentencing
guidelines and apply the statutory maximum as expressed in §921.0024(2), the judge
must base his reasons for departure on either: a) a defendant’s prior record; b) factual
findings made by the jury; or c) an admission by the defendant.
Next, this Honorable Court expressed in its order denying that the Defendant’s
sentence is not a departure sentence under his CPC scoresheet. And the Defendant
agrees. Yet this Honorable Court overlooks that the CPC scoresheet should have
attachments. See §921.0024(7), Fla. Stat8. These attachments are the sentencing
guideline scoresheet under Rule 3.988(j), Fla. R. Crim. P. Although subsection
921.0024(7) does not specify that a scoresheet under rule 3.988(j) should accompany
the CPC scoresheet, it can be inferred through strict observation of §921.0025 and
§921.0024(7).
Subsection 921.0025 included rule 3.988 in its adoption. It is the only rule
listed, among three others, that is not a rule governing the sentencing guidelines, but
a form consisting of mathematical formulas to arrive at a specific sanction that is to

8 §921.0024(7), Fla. Stat. (2019), states: “A digitized sentencing scoresheet must be prepared for every defendant who
is sentenced for a felony offense. The individual offender’s digitized Criminal Punishment Code scoresheet and any
attachments thereto prepared pursuant to Rule 3.701, Rule 3.702, or Rule 3.703, Florida Rules of Criminal Procedure,
or any other rule pertaining to the preparation and submission of felony sentencing scoresheets, must be included with
the uniform judgment and sentence form provided to the Department of Corrections.”

be imposed upon a criminal defendant. It is of significant importance because the
legislature chose this rule, which corresponds to rule 3.701, rather than using rule
3.990 (the form used to calculate sentences imposed corresponding to rule 3.702),
or rule 3.991 (the form used to calculate sentences imposed corresponding to rule
3.703). In addition, subsection 921.0024(7) states that in relevant part:
“...The individual offender’s digitized Criminal
Punishment Code scoresheet and any attachments thereto
prepared pursuant to Rule 3.701, Rule 3.702, or Rule
3.703, Florida Rules of Criminal Procedure, or any other
rule pertaining to the preparation and submission of felony
sentencing scoresheets...”
This demonstrates that a sentence imposed is not solely based on the CPC scoresheet,
but also on the scoresheet provided by rule 3.988(j). The CPC scoresheet only
establishes the permissible sentencing range for a criminal defendant. Not the
actual sentencing range. Ultimately, just because the CPC scoresheet doesn t
demonstrate that the Defendant’s sentence is a departure sentence does not establish
that his sentence is not a departure sentence. Under the sentencing guideline
scoresheet, which should have been calculated and included with the CPC
scoresheet, it is a departure sentence.
Finally, this Honorable Court’s order denying provides that the Defendant’s
claim, the court erroneously imposed an upward departure sentence without written
reasons, is not cognizable under rule 3.800(a). Once again, the Defendant does not
claim that his sentence is illegal because it was not accompanied by written reason.

He claims that his sentence is illegal because he was not charged with any sentence
enhancement that would permit a sentence beyond his sentencing guideline range.
The Defendant was charged with the criminal offenses of Armed Burglary
with a Firearm and/or Assault and/or Battery, Armed Robbery with a Firearm,
Armed Kidnapping, two counts of False Imprisonment, and two counts of
Aggravated Assault with a Firearm. Aside from these criminal offenses, the only
other violation the Defendant was charged with is the 10/20/Life statute
(§775.087(1) and (2)(a), Fla. Stat.). See Exhibit “A” (Second Amended
Information). The 10/20/Life statute only authorized the imposition of a 10 year
mandatory minimum to the burglary, robbery, and kidnapping.
As a result of a guilty verdict, the Defendant received three 40 year sentences
and four 185.4 month sentences. All sentences were imposed concurrently. See
!

Exhibit “B” (Judgment and Sentence). This sentence exceeds the sentencing
guidelines, or prescribed statutory maximum, resulting in an illegal sentence that is
an Apprendi/Blakely violation. Therefore, the Defendant’s claim is cognizable on
3.800(a). See Plott v. State, 148 So. 3d 90, 95 (Fla. 2014) ([W]e hold that upward
departure sentences that are unconstitutionally enhanced in violation of Apprendi
and Blakely patently fail to comport with constitutional limitations, and
consequently, the sentences are illegal under rule 3.800(a)).

CONCLUSION
WHEREFORE, the Defendant prays, and respectfully requests, that this
Honorable Court reconsider his Motion to Correct Illegal Sentence and resentence
him to his recommended sentencing guidelines range of 12-17 years.

/s/
\

r

El-Asad J. Afsaedi DC/f D24134
Graceville Correctional Facility
5168 Ezell Rd.
Graceville, Florida 32440

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a copy of the foregoing Motion to Correct an
Illegal Sentence has been placed in the hands of classification personnel, at
Graceville Correctional Facility, for the purpose of mailing to The State Attorney’s
Office at 2071 Ringling Blvd, Suite 400, Sarasota, Florida 34237-7000 on this L]
day of

-pw-iV?

,2019.
/s/

El-Asad J. Alsaedi DC# D24134

I

